                                                              O FFICE OF A UDIT S ERVICES , R EGION II
April 2, 2012                                                  J ACOB K. J AVITS F EDERAL B UILDING
                                                                     26 F EDERAL P LAZA , R OOM 3900
                                                                              N EW Y ORK, NY 10278
Report Number: A-02-10-01006

Mr. Patrick Kiley
President
Highmark Medicare Services, Inc.
1800 Center Street
P.O. Box 890089
Camp Hill, PA 17089

Dear Mr. Kiley:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Resident Data Reported in the Intern and Resident
Information System for Medicare Cost Reports Submitted to Highmark Medicare Services, Inc.,
and National Government Services, Inc. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Tierney, Audit Manager, at (518) 437-9390, extension 222, or through email at
Brenda.Tierney@oig.hhs.gov. Please refer to report number A-02-10-01006 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 - Mr. Patrick Kiley


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF RESIDENT DATA
  REPORTED IN THE INTERN AND
RESIDENT INFORMATION SYSTEM FOR
     MEDICARE COST REPORTS
SUBMITTED TO HIGHMARK MEDICARE
  SERVICES, INC., AND NATIONAL
   GOVERNMENT SERVICES, INC.


                        Daniel R. Levinson
                         Inspector General

                            April 2012
                          A-02-10-01006
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY 


BACKGROUND 


Since its inception in 1965, the Medicare program has shared in the costs of educational
activities incurred by participating hospitals. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, makes two types of payments to teaching
hospitals to support graduate medical education (GME) programs for physicians and other
practitioners. Direct GME payments are Medicare's share of the direct costs of training interns
and residents, such as salaries and fringe benefits of residents and faculty and hospital overhead
expenses. (In this report, "resident" includes hospital interns.) Indirect GME payments cover
the additional operating costs that teaching hospitals incur in treating inpatients, such as the costs
associated with using more intensive treatments, treating sicker patients, using a costlier staff
mix, and ordering more tests.

A hospital claims reimbursement for both direct and indirect GME, in part, based on the number
of full-time equivalent (FTE) residents that the hospital trains and the portion of training time
those residents spend working at that hospital. Pursuant to 42 CFR §§ 412.105(f)(l)(iii)(A) and
413.78(b), no resident may be counted as more than one FTE.

CMS makes available the Intern and Resident Information System (IRIS), a software application
that hospitals use to collect and report information on residents working in approved residency
training programs at teaching hospitals. According to 67 Fed. Reg. 48189 (July 23,2002), the
primary purpose of the IRIS is to ensure that no resident is counted by the Medicare program as
more than one FTE employee in the calculation of payments for the costs of direct and indirect
GME.

Highmark Medicare Services, Inc. (Highmark) is a Medicare Administrative Contractor (MAC)
under contract with CMS to administer the Medicare Part A (hospital insurance) program.
Highmark administers the program for MAC Jurisdiction 12, which consists offour States­
Pennsylvania, Maryland, New Jersey, and Delaware-and the District of Columbia. For fiscal
year (FY) ended 2006, 133 hospitals in MAC Jurisdiction 12 collected and reported information
to the IRIS on residents. In FY ended 2007, the figure was 132 hospitals.

National Government Services, Inc. (NGS) is a MAC under contract with CMS to administer the
Medicare Part A program for MAC Jurisdiction 13, which consists of two States-New York
and Connecticut. For FY ended 2006, 139 hospitals in MAC Jurisdiction 13 collected and
reported information to the IRIS on residents. In FY ended 2007, the figure was 137 hospitals.

OBJECTIVE

The objective of our review was to determine whether hospitals in MAC Jurisdiction 12 claimed
Medicare GME reimbursement for residents also claimed by hospitals in MAC Jurisdiction 13 in
accordance with Federal requirements.
SUMMARY OF FINDING 


Hospitals in MAC Jurisdiction 12 did not always claim Medicare GME reimbursement for
residents in accordance with Federal requirements. Specifically, 36 hospitals in MAC
Jurisdiction 12 overstated direct and/or indirect FTE counts on cost reports covering FYs 2006
and 2007 for residents who were also included in the FTE counts on cost reports submitted by
hospitals in MAC Jurisdiction 13. As a result, 29 of these 36 hospitals received excess Medicare
GME reimbursement totaling $221,772 for residents who were also claimed by hospitals in
MAC Jurisdiction 13 for the same period and counted in the IRIS as more than one FTE. For the
remaining seven hospitals, the FTE overstatements did not have an effect on the hospitals'
Medicare GME reimbursement.

The overstated FTE counts and excess reimbursement occurred because there was no Federal
requirement for Highmark to compare IRIS data submitted by hospitals in its jurisdiction to IRIS
data submitted by hospitals in other MAC jurisdictions to detect whether a resident had
overlapping rotational assignments. As a result, Highmark did not have procedures to ensure
that residents working at hospitals in different MAC jurisdictions were not counted as more than
one FTE in the calculation of Medicare GME payments.

RECOMMENDATIONS

We recommend that Highmark:

   • 	 recover $221,772 in excess Medicare GME reimbursement paid to 29 hospitals in MAC
       Jurisdiction 12,

   • 	 adjust the direct and indirect FTE counts claimed on the Medicare cost reports covering
       FYs 2006 and 2007 for each of the hospitals that did not did always claim Medicare
       GME reimbursement in accordance with Federal requirements,

   • 	 consider developing procedures to ensure that no resident working at hospitals in
       different MAC jurisdictions is counted as more than one FTE in the calculation of
       Medicare GME payments, and

   • 	 consider working with NGS to identify and recover any additional overpayments made to
       hospitals in MAC Jurisdiction 12 for residents also claimed by hospitals in MAC
       Jurisdiction 13 and for whom the FTE count exceeded one on Medicare cost reports
       submitted after FY 2007.

HIGHMARK MEDICARE SERVICES, INC., COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Highmark did not concur with our findings and partially
agreed with our recommended financial disallowance. Specifically, Highmark agreed that the
FTE counts on 68 cost reports (out of a total of 85 cost reports with overpayments) should be
adjusted for duplicate residents. However, it described multiple reasons for why its

                                               11
detenninations of final overpayment amounts and FTE counts may differ from ours and
indicated that, without CMS approval to adjust workloads, it will not have the resources to
review and incorporate our findings into the settlement of the 68 cost reports. Highmark stated
that it will not reopen 17 settled cost reports (with excess reimbursement totaling $31,021)
because the overpayment amounts do not meet Highmark's materiality thresholds for reopening
settled cost reports. Further, Highmark indicated that there is no requirement in the MAC
Jurisdiction 12 statement of work to identify duplicate residents in other MAC jurisdictions and
that CMS does not provide funding for this. Highmark stated that it would continue to review
FTEs in accordance with CMS instructions but that it would not change its procedures or expand
review efforts unless CMS issues a contract modification and/or technical direction letter.

After reviewing Highmark's comments, we maintain that our findings and recommendations are
valid. Highmark's comments are included in their entirety as the Appendix.




                                               111
                                                    T ABLE OF CONTENTS 




INTRODUCTION............................................................................................................. 1 


     BACKGROUND .......................................................................................................... 1 

        Medicare Payments for Graduate Medical Education .............. .. .............. ........... 1 

        Intern and Resident Information System .................................. .. .............. ........... 1 

        Higlunark Medicare Services, Inc ........................................................................ 2 

        National Government Services, Inc ............................. ... ..................... ... ............. 2 


     OBJECTIVE, SCOPE, AND METHODOLOGY ...... ............... ........ .. .............. ........... 2 

         Objective ..............................................................................................................2 

         Scope ................................................................................................................... .3 

         Methodology ......................................... .. ..................... ... ..................... ... ............ .3 


FINDING AND RECOMMENDATIONS ........................................................... .......... .4 


     RESIDENT FULL- TIME EQUIVALENT COUNT EXCEEDED ONE ...... ............. .4 


     RECOMMENDATIONS .............................................................................................. 5 


     HIGHMARK MEDICARE SERVICES, INC., COMMENTS .................................... 5 


     OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................6 


APPENDIX

     HIGHMARK MEDICARE SERVICES, INC., COMMENTS




                                                                       IV
                                                    INTRODUCTION 


BACKGROUND

Medicare Payments for Graduate Medical Education

Since its inception in 1965, the Medicare program has shared in the costs of educational
activities incurred by participating hospitals. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, makes two types of payments to teaching
hospitals to support graduate medical education (GME) programs for physicians and other
practitioners. Direct GME payments are Medicare's share of the direct costs of training interns
and residents, such as salaries and fringe benefits of residents and faculty and hospital overhead
expenses. 1 Indirect GME payments cover the additional operating costs that teaching hospitals
incur in treating inpatients, such as costs associated with using more intensive treatments,
treating sicker patients, using a costlier staff mix, and ordering more tests.

A hospital claims reimbursement for both direct and indirect GME, in part, based on the number
of full-time equivalent (FTE) residents that the hospital trains and the portion of time those
residents spend working at the hospital. Pursuant to 42 CFR § 412.1 05(f)(1 )(iii)(A), FTE status
is based on the total time necessary to fill a residency slot. The regulation states: "If a resident
is assigned to more than one hospital, the resident counts as a partial [FTE] based on the
proportion of time worked in any areas of the hospital listed in paragraph (f)(1)(ii) of this section
to the total time worked by the resident. A hospital cannot claim the time spent by residents
training at another hospital.,,2

For payment purposes, the total number of FTE residents is the 3-year "rolling average" of the
hospital's actual FTE count for the current year and the preceding two cost-reporting periods
(42 CFR §§ 4l2.l05(f) and 413.79(d)(3)). Pursuant to 42 CFR §§ 4l2.l05(f)(1)(iii)(A) and
413.78(b), no individual may be counted as more than one FTE. Each time the hospitals claims
GME reimbursement for a resident it must provide CMS with information on the resident's
program, year of residency, dates and locations of training (including training at other hospitals),
and percentage of time working at those locations (42 CFR §§ 4l2.l05(f) and 413. 75(d)).

For fiscal year (FY) 2009 (the most current data available), teaching hospitals nationwide
claimed GME reimbursement totaling $3 billion for direct GME and $6.5 billion for indirect
GME.

Intern and Resident Information System

CMS makes available the Intern and Resident Information System (IRIS), a software application
that hospitals use to collect and report information on residents working in approved residency
programs at teaching hospitals. Hospitals receiving direct and/or indirect GME payments must
submit, with each annual Medicare cost report, IRIS data files that contain information on their

1   In this report, "resident" includes hospital interns.

2   When referring to the time a resident spends at a hospital, the terms "working" and "training" are interchangeable.

                                                             1

residents, including, but not limited to, the dates of each resident's rotational assignment.
According to 67 Fed. Reg. 48189 (July 23,2002), the primary purpose of the IRIS is to ensure
that no resident is counted by the Medicare program as more than one FTE employee in the
calculation of payments for the costs of direct and indirect GME.

Highmark Medicare Services, Inc.

Highmark Medicare Services, Inc. (Highmark), is a Medicare Administrative Contractor (MAC)'
under contract with CMS to administer the Medicare Part A (hospital insurance) program.
Highmark administers the program for MAC Jurisdiction 12, which consists offour States­
Pennsylvania, Maryland, New Jersey, and Delaware-and the District ofColumbia 4 For FY
ended 2006, 133 hospitals in Jurisdiction 12 collected and reported information to the IRIS on
residents. In FY ended 2007, the figure was 132 hospitals.

For FYs 2006 and 2007, hospitals in MAC Jurisdiction 12 claimed GME reimbursement totaling
$650 million for direct GME and $l.5 billion for indirect GME.

National Government Services, Inc.

National Government Services, Inc. (NGS), is a MAC under contract with CMS to administer
the Medicare Part A program for MAC Jurisdiction 13, which consists of two States-New York
and Connecticut. For FY ended 2006, 139 hospitals in Jurisdiction 13 collected and reported
information to the IRIS on residents. In FY ended 2007, the figure was 137 hospitals.

For FYs 2006 and 2007, hospitals in MAC Jurisdiction 13 claimed GME reimbursement totaling
$l.5 billion for direct GME and $2.6 billion for indirect GME.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether hospitals in MAC Jurisdiction 12 claimed
Medicare GME reimbursement for residents also claimed by hospitals in MAC Jurisdiction 13 in
accordance with Federal requirements.




, Section 911 of the Medicare Prescription Drug, Improvemen~ and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer to MACs, between October 2005 and October 2011, the functions of fiscal intermediaries
and carriers. For each 1.1AC jurisdiction, the legal fiscal intennediaries and carriers continue to service the providers
in those States until the MAC assumes responsibility for the workload.

4 CMS awarded the MAC contract for Jurisdiction 12 to Highmark on October 24,2007. However, because of a
protest of the award, the transition was delayed. In December 2008, Highmark assumed full responsibility for the
workload in Jurisdiction 12. Therefore, Highmark is responsible for collecting any overpayments and resolving the
issues related to this audit.

                                                           2

Scope

We reviewed IRIS data that hospitals in MAC Jurisdictions 12 and 13 submitted to support
resident training costs claimed on annual Medicare cost reports covering FY s 2006 and 2007.
We previously issued a report (A-02-09-01019) to Highmark on resident data reported in the
IRIS by hospitals within its jurisdiction. In addition, we will be issuing a separate report (A-02­
10-0 I 007) to NGS on hospitals in MAC Jurisdiction 13 that claimed Medicare GME
reimbursement for residents also claimed by hospitals in MAC Jurisdiction 12.

We did not assess Highmark's overall internal control structure. Rather, we limited our review
of internal controls to those applicable to our audit, which did not require an understanding of all
internal controls over the Medicare program.

Methodology

To accomplish our objective, we:

    • 	 reviewed applicable Federal laws, regulations, and guidance;

    • 	 held discussions with Highmark officials to gain an understanding of Highmark's
        procedures for reviewing IRIS data submitted by hospitals in other MAC jurisdictions;

    • 	 obtained FY s 2006 and 2007 IRIS data from Highmark and NGS for all hospitals in
        MAC Jurisdictions 12 and 13, respectively;

    • 	 analyzed the IRIS data to identify residents claimed by at least one hospital in MAC
        Jurisdiction 12 and at least one hospital in MAC Jurisdiction 13 for the same rotational
        assignment (e.g., weekly rotation schedule) and for whom the total FTE count exceeded
        one·, 5

    • 	 obtained and reviewed rotation schedules and other documentation from hospitals in
        MAC Jurisdictions 12 and 13 for each resident whose total FTE count exceeded one to
        determine which hospital should have claimed Medicare GME reimbursement for the
        resident during the overlapping period;

    • 	 adjusted the claimable direct and/or indirect FTE counts for hospitals that should not
        have claimed GME reimbursement for residents during an overlapping period or
        provided conflicting documentation that did not resolve the overlapping rotation dates; 6
        and

5 Ihe FIE count for a resident exceeded one FIE when the total direct GME percentage and/or the total indirect
GME percentage for overlapping rotational assignments, as reported in the IRIS, was greater than 100 percent.

6 According to Highmark guidance, the resolution of overlaps or duplicate rotations is the responsibility of each
individual hospital. When hospitals cannot reach an agreement on which hospital should claim a resident, no
hospital can count the FIE or claim reimbursement for the resident.


                                                          3

      • 	 detennined the net dollar effect of the adjustments to the direct and indirect FTE counts
          by recalculating each hospital's Medicare cost report( s). 7

We conducted this perfonnance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perfonn the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDING AND RECOMMENDATIONS

RESIDENT FULL-TIME EQUIVALENT COUNT EXCEEDED ONE

Pursuant to 42 CFR § 412.105(f)(l)(iii)(A), if a resident is assigned to more than one hospital,
the resident counts as a partial FTE based on the proportion of time worked in the hospital to the
total time worked by the resident. A hospital cannot claim the time spent by residents training at
another hospital. In addition, pursuant to 42 CFR §§ 412.105(f)(l)(iii)(A) and 413. 78(b), no
individual may be counted as more than one FTE in the calculation of Medicare GME payments.

For Medicare cost reports covering FYs 2006 and 2007, 36 8 hospitals in MAC Jurisdiction 12
claimed GME reimbursement for residents who were also claimed by at least one hospital in
MAC Jurisdiction 13 for the same period and whose total FTE count exceeded one. Specifically,
these 36 hospitals overstated FTE counts for direct GME reimbursement by a total of 2.93 FTEs
for FY 2006 and 4.70 FTEs for FY 2007. In addition, the 36 hospitals overstated FTE counts for
indirect GME reimbursement by a total of3.05 FTEs for FY 2006 and 5.39 FTEs for FY 2007.

Twenty-nine of the thirty-six hospitals with overstated FTEs received excess Medicare GME
reimbursement totaling $221,772. Specifically, we detennined that these hospitals overstated, on
Medicare cost reports for 2006 through 2009,9 FTE counts for FYs 2006 and 2007. We
detennined this by using CMS's 3-year rolling average fonnula. The 29 hospitals overstated:

      • 	 direct GME reimbursement by $120,621, and

      • 	 indirect GME reimbursement by $101,15l.




7   We used Worksheet E-3, PartlV, to recalculate direct GME reimbursement and Worksheet E, Part A, for indirect
G1v1E reimbursement.

8For FY s 2006 and 2007, the 36 hospitals claimed GME reimbursement totaling $348 million for direct GME and
$827 million for indirect GME.

9The 2006 FTE overstatements affected GME costs claimed on FY s 2007 and 2008 Medicare cost reports. The FY
2007 FTE overstatements affected GME costs claimed on FY s 2008 and 2009 Medicare cost reports.


                                                         4

For the remaining seven hospitals, the overstated FTEs did not have a dollar effect on Medicare
GME reimbursement because five hospitals were still over their FTE caps10 after adjusting the
claimable direct and/or indirect FTE counts and the FTE adjustments for the other two hospitals
was equal to 0 when rounded to the nearest hundredth.

The overstated FTE counts and excess reimbursement occurred because there was no Federal
requirement for Highmark to compare IRIS data submitted by hospitals in its jurisdiction to IRIS
data submitted by hospitals in other MAC jurisdictions to detect whether a resident had
overlapping rotational assignments. As a result, Highmark did not have procedures to ensure
that residents working at hospitals in different MAC jurisdictions were not counted as more than
one FTE in the calculation of Medicare GME payments.

RECOMMENDATIONS

We recommend that Highmark:

    • 	 recover $221,772 in excess Medicare GME reimbursement paid to 29 hospitals in MAC
        Jurisdiction 12,

    • 	 adjust the direct and indirect FTE counts claimed on the Medicare cost reports covering
        FYs 2006 and 2007 for each of the hospitals that did not always claim Medicare GME
        reimbursement in accordance with Federal requirements,

    • 	 consider developing procedures to ensure that no resident working at hospitals in
        different MAC jurisdictions is counted as more than one FTE in the calculation of
        Medicare GME payments, and

    • 	 consider working with NGS to identify and recover any additional overpayments made to
        hospitals in MAC Jurisdiction 12 for residents also claimed by hospitals in MAC
        Jurisdiction 13 and for whom the FTE count exceeded one on Medicare cost reports
        submitted after FY 2007.

HIGHMARK MEDICARE SERVICES, INC., COMMENTS

In written comments on our draft report, Highmark did not concur with our findings and partially
agreed with our recommended financial disallowance. Specifically, Highmark agreed that the
FTE counts on 68 cost reports (out of a total of 85 cost reports with overpayments) should be
adjusted for duplicate residents. However, it described multiple reasons for why its
determinations of final overpayment amounts and FTE counts may differ from ours and
indicated that, without CMS approval to adjust workloads, it will not have the resources to
review and incorporate our findings into the settlement of the 68 cost reports.




10 Section 1886 of the Social Security Act established caps on the number ofresidents that a hospital may claim for
Medicare direct and indirect G1.1E reimbursement.

                                                         5

Highmark indicated that its detenninations of final overpayment amounts and FTE counts may
differ because: (1) we used IRIS data as source documentation and a review of the hospital's
rotation schedules and the FTEs claimed on cost reports may differ from the FTEs reported in
IRIS , (2) any change in the resident counts may impact the resident-to-bed ratio and could result
in changes to the overpayment amounts we identified, (3) the hospitals may provide new
evidence that could change the overpayment, and (4) of the 85 cost reports with overpayments,
68 have not been final settled and the savings may change when they are settled.

Although Highmark agreed that the FTE counts on the 68 cost reports that have not been settled
should be adjusted for duplicate residents, it stated that it will not reopen 17 settled cost reports
(with excess reimbursement totaling $31,021) because the overpayment amounts do not meet
Highmark's materiality thresholds for reopening settled cost reports. Highmark cited a portion
of section 293l.2 of CMS's Provider Reimbursement Manual- Part 1 (CMS Publication 15-1)
that addresses reopening cost reports based upon new and material evidence and stated that CMS
allows contractors to establish their own reopening thresholds to detennine if a potential
reopening is considered material.

In response to our last two recommendations, Highmark indicated that there is no requirement in
the MAC Jurisdiction 12 statement of work to identify duplicate residents in other MAC
jurisdictions and that CMS does not provide funding for this. Highmark stated that it would
continue to review FTEs in accordance with CMS instructions but that it would not change its
procedures or expand review efforts unless CMS issues a contract modification and/or technical
direction letter.

Highmark' s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Highmark's comments, we maintain that our findings and recommendations are
valid. We also acknowledge that Highmark's final overpayment amounts and FTE counts may
differ from ours when it settles the cost reports for hospitals in MAC Jurisdiction 12. However,
the excess Medicare GME reimbursement we identified was based on adjusting the claimable
direct and/or indirect FTE counts for hospitals that claimed a resident in excess of one FTE. In
addition, we only used IRIS data to identify residents claimed by at least one hospital in MAC
Jurisdiction 12 and at least one hospital in MAC Jurisdiction 13 for the same rotational
assignment (i.e., IRIS data was not the sole source for our FTE adjustments). Rather, our FTE
adjustments were based on reviewing rotation schedules and other documentation from hospitals
in MAC Jurisdictions 12 and 13 for each resident whose total FTE count exceeded one.
Accordingly, each hospital that claimed a resident in excess of one FTE has been notified and
given the opportunity to provide infonnation as to which hospital should have claimed the
resident.

The excess Medicare GME reimbursement amounts that we identified, including the $31,021 for
17 cost reports that Highmark has refused to reopen, are based upon FTE overstatements that are
inconsistent with Federal regulations. Therefore, we maintain that Highmark should adjust the
direct and indirect FTE counts claimed on all of the 85 cost reports and recover any excess


                                                  6

Medicare reimbursement. CMS's Provider Reimbursement Manual- Part 1 (CMS Publication
IS-I) Section 2931.2 states:

         Reopening Final Determination.-Whether or not the intermediary will
         reopen a determination, otherwise final, will depend upon whether new
         and material evidence has been submitted, or a clear and obvious error
         was made, or the determination is found to be inconsistent with the law,
         regulations and rulings, or general instructions.

Contrary to 42 CFR §§ 412.105(f)(l)(iii)(A) and 413.78(b), which state that no individual may
be counted as more than I FTE in the calculation of Medicare GME payments, cost reports for
hospitals in MAC Jurisdiction 12 included residents whose total FTE count exceeded 1. Because
the excess Medicare GME reimbursement amounts for 17 cost reports that Highmark will not
reopen are material and based upon FTE overstatements that are inconsistent with Federal
regulations, we recommend that Highmark reopen the 17 cost reports and recover the $31,021 in
excess Medicare GME reimbursement. In addition, Highmark's thresholds for reopening settled
cost reports are guidelines and not Federal regulations.




                                               7

APPENDIX 

                                                                                                                          Page 1 of5


APPENDIX: HIGH MARK MEDICARE SERVICES, INC., COMMENTS 





        CAIS                                                                                              Medi care
                                                                                                          Parl A

    February 22, 2012

   Mr. James P. Edef! 

   Regionallnspedor General for Audit services 

   Office of Inspeetor GenNal- Region II 

   Ja~ob Javit$ Federal Building
   26 Federal Plaza - Room 3900 

   New York, NY 10278 


   RE: A-02 -10·01006



   Dear Mr. Eder!:

   We received your draft report (A-OZ-IO-oI006) and wver letter dated January 23, 2011, regarding Ille review of
   data reported In till! Intern and Residant Informa tion System (IRIS) for Medicare cost reports submitted to 

   Highmark Mellieilre Services, Inc. (HMS) and National Government Services, Inc. (NGS), Detailed below are the 

   four recommendations con tained In your report, and HMS' responses. 


 I. 	   First DIG recommendation: Recover $221,77210 excess Medicare GME reimbursement paid to 29 hospitals In
        Jurisdiction 12.

        HMS r~spnnse :
        HMS does not concur with thi~ finding has!'!d on th~ followln~'
           • 	 The OIG's estimated overpayment amount may be dlff~rent from th~ fina l ov~rp;!yment determined
               by HMS for th~ following r~asons:
                   o 	 A review o f the hMplta l' s rotation schedules and the FTh claimed on the cost repo rt may be
                        different from the FTcs reported on IRIS. Since the source documenl used by the OIG was
                        the IRIS; we could find differences when comparing to the rotation schedules or the FTEs
                        claimed on the cosi report that could result In a dlffment overpayment amount.
                   o 	 Any changes In Ihe resident counts can impact the resident to bed ratio that could result in
                        changes to the OIG overpayment amoun ts.
                   o 	 Once HMS presents the aud it adJustmer'lts for the duplicate reslder'lts to the hospitals, the
                        hospitals may provide new evidence that could change the overpayment.
                   o 	 Of Ihe 144 cost reports (see summary of cost reports below), there are a total of 68 cost
                       reports that have never been fInal settled, where the OIG overpayments are based On the
                       as-flied cost repOrt. These savings may change once all the adjustments Including updating
                       settlement and payment data are made and the cost r eporlls final settled.

                 Based on the above, HMS believes the flnal overpayment determinations will be different from the
                 OIG's overpayment amounu. Therefore, HMS does not concur with the OIG overpayment amounts.
                 Although HMS does not concur with the OIG overpayment amounts, HMS does agree Ihat the 68 CDst
                 reports should be adJust~d ar'ld settled for any dup/kate residents.

                 or the 144 C051 repo(\$, there are 17 cost reports (th~t were not held open due to the SSt/OSH Issue),
                 have been final settled. for these cost reports the OIG overpayment amount does not meet HMS'
                 reopening th re$holds (materiality levels) and will not be adjusted a$ recommended


                                               <HIGIIM/\RI(
                                                   MrDl( AI,I <.,rrN1Cfs
                                                                         "   .
                                                               . H,II 1'\ I "."
                                                 w.",h, ').,..0,1.,,, ,10 .•' " ••
                                                                                                                           Page 2 of5




        by the OIG. The cost report5 that will not be reopened total $31,021 of the total OIG e5!lmated overpayment. 

        CMS Publication 15· 1, Section 2931.2, states "Whether or not the Intermediary wll! reopen a detetminalion, 

        otherwi'le final, wli! depend upon whether new and material evidence has been submitted ..: CMS allows 

        contractors to establlsh their own reopening thresholds to determine If a potential reopening Is comldered 

        material. As discussed with CMS. HMS do-es not concur to reopen any cost reports that are under our 

        reopening thresholds. 


        TIming of}ellllng tbe 68 tQ~t rel!o(t~; 

        As noted above of the 144 cost reports tested, 61! have not been final settled. these cost reports are not 

        subject tQ reopening thresholds and will be settled with the resident adjustments determined by HMS 

        regardless of materiality. HMS Is holding these cost reports from settlement based on eMS Instructions 

        related to the national SSI r atios and NJ dispropol"tionate share (DSH) Issues. HMS will prO(ess these 

        settlements timely In accordance with CMS Instructions Including Instructions related spedfically to seWing 

        SSI and NJ DSH cost reports. To date CMS has not Issued Instructions relatins to the settlement of open cost 

        reports with SSt/DSH reimbursement. As a result. HMS Is wait ing for eMS instructlo rl and cannot commIt to a 

        time frame for setlllrlg these cost reports. 


        R~ourCl')   10 sellie Ihe 68 cosl reports; 

        To proceed with this addillonal unplarlrled work (68 open settlements), HMS will rleed to obt ain CMS approval 

        to reduce the OY 4 audit plan. Without CMS approval to adJu~t workloads. HMS will not have the resources to 

        review and Incorporate the OIG findings jrlto the ~ett lement of the 68 cost reports. 


        Summary of OtG Oyerpayroerlts by Cost Reports:
        The OIG tested 36 hospitals wit hin MAC Jurisdiction 12 for potenti al overpaymerlts related to resident FTEs
        that were also claimed by hospitals in MAC Jurisdiction 13. Each of the 36110spitals were revi ewed for
        reporting periods 20(}6 through 2009, In total the DIG reviewed 144 (36 X 4) cost reporu. Ofthe 144 cost
        reports subject to the OIG review, S9 were not overpaid according to the OIG's testing results. see additional
        cost report Information below:

                                                                                           Co~t   Reports 

        OIG Recommendation                                        """""
                                                                   S 221,772                      8S 


                                                                   $ 190,751 

        Open settlements (cost report not finallzed)
        Reopenings (..bove threshold)
            Total OIG expected Impact/collections
                                                                  O'$ ccc=.,
                                                                    190,751 

                                                                                               "

                                                                                               -'
        Reopenlngs below HMS threshold (will not be processed)    S 31 021                        "

                                                                                               ..lZ
        Totals agree with OIG recommerldation                     $ 221,772                       8S 

        Cost reports that had no overpayments per the OIG
        Total of all cost reports reviewed 	                      5221,772
                                                                            Q

                                                                                              -"
                                                                                              .l!<
II. 	   Secorld QIG retommemlat!on; Adjust the direct ilnd Indirect fTE counts claimed on the Medicare cost repom
        covering fYs 2006 and 2007 for each of the hospitals that did not always claIm Medicare GME reimbursement
        In accordance with Federal requirements.

        HMS response; 

        HMS does not coWr wjth this f)ndlng based on the following; 

           • 	 The DIG's HE counts may differ from the final HE count determined by HMS for the following
               reasons:
                        o 	 A review of the hospltaYs rotation schedu~s and the HEs claimed on the cost report
                            may be different flOm the HB reported on IRIS. Since the source document used by
                            the OIG was the IRIS we could find differences when comparing to the rotiltlon
                            schedules or the FTEs claimed on the cost report that could result In different HE
                            amounts.
                                                                                                                                 Page 3 of5




                            o   Any changes in the resident counts call impact the resident to bed rallo that could result
                                in changes to the OIG over payment ..mounts.
                            o   Once HMS presents Ihe audit adjustments for t he duplicate resident s to Ihe hospitals,
                                the hospitals may provide new evidence that could change the FIE (Qunts,

                       Based on the above, HMS believes the final fTE count determinations will be differen t from the
                       OIG's FTB. Therefore, HMS does not concur with the OIG HE coun ts_ Although HMS d()('$ not
                       concu r with the OIG FTEs, HMS does agree Ihat the 68 cost repo r\$ should be adjusted and
                       settled for any duplica te residents.

                       Of the 144 cost reports, there arc 17 cost reports (that were not held open due to the SSl/oSH
                       inue), have been final settled. For Ihese cost reports the OIG overpayment amoun t does not
                       meet HMS' reopening threSholds (materiality levels) and will not be adjusted as recommended
                       by the OIG. eMS Publ ic~tion 15· 1, Section 2931.2, states ' Whether or ...ot the I...t ermedlary wil l
                       reopen a determi...atlon, ottlerwise rtnal, will depend upon whether new and material evidence
                       has been submlt!ed ...» CMS allows contractors to establish their own reopening thresholds to
                       determ ine il a potent ial reopening Is considered material. As discussed with eMS, HMS does not
                       concur to reopen any cost reports that are under our reopening thresholds.

             Timing of sgll lJng thg 68 cost reports· 

             As noted above of the 144 cost reports tested, 68 have not b een final settled, these cost reports are not 

             subject to reoplmlng thresholds and will be settl ed with the resident adjustments determined by HMS 

             regard less of materiality. HMS is holding these cost reports from settlemen t based on CMS Instructions 

             related to the national 551 ratios and NJ disproportionate share (DSH) Issues. HMS will process these 

             settle ments timely in accorda ...ce with CMS instruct iOll5lndudinB Instrucllons related specifically to 

             setl linB SSI and NJ OSH cost reports. To date eMS h as not issued instructions relatlnB to the sett lrnnent of 

             open cost reports with SSI/DSH reimbursement. As a result, HMS is waiting for CMS instruction and 

             cannot commit to a time frame for settling these cost reports. 


             Resources to settle the 68 ~O~l repOfts; 

             To proceed with this additional unplanned work (68 open settlements), HMS will need to obtain CMS 

             approval to reduce the OY 4 audit plan. Without CMS approval to adjust workloads, HMS will not have 

             the resources to review and iMorporate the OIG finding!> Into the settlement o f the 68 cost report!l. 


III. 	   Third e !G recomm endation: ConSider developing procedures 10 ensure that no resklent working at hospitals
         In different MAC jurisdictions Is counted as more than one HE In Ihe calculation of MedIca re GME payments .

         HM S r esponse:
         HMS does no) roneyr wjtb this finding. based on the following:
         There Is no spedfic requirement in the Jl2 SOW and CMS provides no funding for HMS to review for duplica te
         residenh In other MAC jurisdktions. The J12 SOW item C.S.11.3.3.1 1 states; "The Contractor shall implement
         and notify providers that train residents In approved graduate medical education (GME) programs of all In tern
         and Resident Information System (IRIS) updates In accordance with CMS instructions provided in periodic
         change rO!QuesU {CRs).» In addition, any sharing of data Including protected health informa tio n between HMS
         and NGS would require CMS approval and a Joint Operating Agreement (lOA) between the organizations.

         HMS will cont inue to review FTEs In accorda nce with CM S expectations and instr uct ions but will not change
         our procedures or expand our review efforts un less eMS Issues a con t ract modlflcatlon and or technical
         direction Je tter from the CMS·Contracting Officer's Technical Representative (COTR).

IV. 	    Fourth elG recom me nd at(g n: Consider working with NGS to Identify and recover any additional
         overpayments made to hospitals in MAC Jurisdiction 12 for resldents also claimed by hospitals In MAC
         Jurisdiction 13 and for whom the He count eKceeded one on Medkare cost reports submitted after fY 2007.
                                                                                                                    Page 4 of5




     HMS (ISRRnR; 

    HMS does nRt cQOcyr wjth Ws finc!illf!. based on the followlne; 

    There Is no spedflc requirement in the J12 SOW ;md CMS provides no lundll'\8 for HMS to r eview lor duplicate 

    residen ts In other MAC )url5dlctions. The 112 SOW Item C.S.11 ,3,3,11 slat es; "The Contractor shall lmpJement 

    ~nd notify proYlders thallraln rE!$idenh in ;tpPfoved graduate medical educatIon (GME) programs of alliniern 

    and Re$ident Information Sy~tem (IRIS) updates In accordance with CMS Instructions pl"ovlded In periodic 

    change requests (CRs)." In ~ddltlon, any sharing of data Including protected heallh Information between HMS 

    and NGS would require CMS appH)\Ial and a Joint Operating Allreemenl\JOA) belwE!l!fllhe org.lOllations . 


    HMS will continue to review FTEsin accordance with CMS expectations and Instruct ions but will not change 

    our procedures or expand olJr review efforts unless CM S Inues a contract modlnca1ion and or technical 

    direction leiter from the eMS· Contracting Officer's Techrlical Representative (COTR). 


II you have any questions or comments concerning this response, please COM act me at 443·886·2808 or through
email atadam .weber@hlghma..xmedicareservlces.com .

Sincerely,




Adam Weber
Director, PrOYlder Audit
Highmark Medicare Services, Inc.
                                                                                                            Page 50f5




-"
..... ..
~-
           -_.._--­
    -- ~- --    ­              ...

                                                                                      ...'... ,........,-.. .,-.... ....
                                                                                                        --~




                                                                                                            .....,. -,..,.,.'"
                                                                                                         ,, "'
                                                                                                   ..."" .....
                                                                                                        j   .,          .,




                                                                                           .....
                                                                                       ......_'WI.
                                                                                              ,
                                                                                                   >I, ...
                                                                                                .....   "',,,,.
                                                                                                               "",
                                                                                                                        .\
                                                                                                                         I

                                                                                                                         'lill
                                                                                                                         ,
                                                                                                                              ..



                                                                                       1.1<1,""",,....,,-,,,,,,.,,,
                                                                                       "'"· ,...,........
                                                                                            • !II' wI
                                                                                                           "I ....
                                                                                                               ,,. 

                                                                                                                   '"



                                                                                       _· ". ......
                                                                                            I     'VOl'
                                                                                                 t,!u         I,'"l.I'" ,

                                                                                            ,.....,,,_, ...,". .....
                                                                                          . ,"""_
                                                                                             I ...... u:> •, ....



                                                                                             ' ' ' ' ' ' W"
                                                                                                           , .    UIO ......
                                                                                             ...... ,       .".       • UII'


                                                                                             ,....
                                                                                             I ..... , .,., • "'" , """
                                                                                             •      .,       _,
                                                                                                                        .,­
                                                                                                                         I



                                                                                        ...I IlI'..,'
                                                                                        .... ,,~I
                                                                                                           ..
                                                                                         .. ......I ....,., ... ,,'....,
                                                                                                                    ......
                                                                                                     ...... ' ' ' ' ' ­
                                                                                               " ' , . . . . . . . . . . Cit


                                                                                         ".,·.... ..,''....,.:.0.­
                                                                                                         n.
                                                                                        ..... , .,. ....,.,
                                                                                             I ..... , ..... I C>< • lUI<
                                                                                                                    liT ....


                                                                                                                             ~


                                                                                             . . . . . 'WO' ..... ..n....
                                                       "



_t._.__ .  t.oo _ _ ... _


           c.._ .. _    ..._
                                 .... _ - - . _ .. _
                                     ~   cc
                                     ...._

                                                       ---
                                                           .... _
                                                                    -_.
                                                                    -, -,"
                                                                    .11.."
                                                                             .~.




                                                                                   _.-
                                                                                   --
                                                                                   -.-
                                                                                   -
                                                                                       ---
                                                                                       •
                                                                                         , , ,, -
                                                                                         ,
                                                                                          •, ,• ,• ,
                                                                                           •    ,
                                                                                                •
                                                                                                   m

                                                                                                    "
                                                                                                                               ,•


                                                       ... _
                                                                               •
                                                            ....­
                                                                  -
          •
                                                                    ~

                                                       '
